Case No.
IN THE
SUPREME COURT OF THE UNITED STATES
HEATHER and PEARL SINGLETON,
Petitioners​,
v.
SUPREME COURT CHIEF JUSTICE
MARY E. FAIRHURST, et al.,
Respondents.
On Petition for Writ of Certiorari from the
Washington State Supreme Court.

CERTIFICATE OF WORD COUNT

July 30, 2019

SCOTT E. STAFNE
Counsel of Record
239 N. Olympic Avenue
Arlington, WA 98223
TEL: (360) 403-8700
Scott@Stafnelaw.com

CERTIFICATE OF WORD COUNT
Pursuant to Rule 33(h), I hereby certify that this brief contains 8829 words
as counted by Microsoft Word, and therefore complies with the word count
limits set out in Rule 33. This brief was prepared in 12-point Century
Schoolbook font, with footnotes in 10-point font.
DATED on July 30, 2019,

s/ Scott E. Stafne
SCOTT E. STAFNE WSBA #6964
Counsel of Record
STAFNE LAW Advocacy & Consulting
239 N. Olympic Avenue
Arlington, WA 98223
(360) 403-8700
Scott@StafneLaw.com

